NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAY 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
GLEN JONES WARD,

No. 19-35279

Plaintiff-Appellant,

D.C. No. 1:18-cv-00325-DCN

v.
MEMORANDUM*
STATE OF IDAHO; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Idaho
David C. Nye, District Judge, Presiding
Submitted May 6, 2020**
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.
X

Idaho state prisoner Glen Jones Ward appeals pro se from the district court’s
judgment dismissing his 42 U.S.C. § 1983 action alleging Eighth Amendment
failure-to-protect claims and related state law claims. We have jurisdiction under
28 U.S.C. § 1291. We review de novo. Watison v. Carter, 668 F.3d 1108, 1112

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

(9th Cir. 2012) (dismissal for failure to state a claim under 28 U.S.C.
§ 1915(e)(2)(B)(ii)); Resnick v. Hayes, 213 F.3d 443, 447 (9th Cir. 2000)
(dismissal for failure to state a claim under 28 U.S.C. § 1915A). We affirm.
The district court properly dismissed Ward’s Eighth Amendment failure-toprotect claim because Ward failed to allege facts sufficient to demonstrate that the
individual defendants’ actions, including vocalizing “Charge Check” over the
prison’s radio in connection with Ward’s request for protective custody, posed a
substantial risk of harm. See Lemire v. Cal. Dep’t of Corrs. & Rehab., 726 F.3d
1062, 1074 (9th Cir. 2013) (setting forth elements of a failure-to-protect claim).
The district court properly dismissed Ward’s claims against the State of
Idaho, the Idaho Department of Corrections, and the Idaho State Correctional
Center as barred by Eleventh Amendment immunity. See Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 100 (1984) (the Eleventh Amendment bars suits
against states or its agencies or departments absent their consent to be sued);
Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989) (state agencies such as the
Department of Prisons are immune from suit under the Eleventh Amendment).
The district court properly dismissed Ward’s state law claims because Ward
failed to allege facts sufficient to state a plausible claim. See Hebbe v. Pliler, 627
F.3d 338, 341-42 (9th Cir. 2010) (although pro se pleadings are construed liberally,
plaintiff must present factual allegations sufficient to state a plausible claim for

2

19-35279

relief); see also Yoakum v. Hartford Fire Ins. Co., 923 P.2d 416, 421 (Idaho 1996)
(finding no private right of action in state criminal statutes).
The district court did not abuse its discretion in denying Ward’s requests for
appointment of counsel because Ward failed to demonstrate “exceptional
circumstances” warranting the appointment of counsel. See Palmer v. Valdez, 560
F.3d 965, 970 (9th Cir. 2009) (setting forth standard of review and “exceptional
circumstances” standard for appointment of counsel).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
We do not consider facts or documents that were not raised before the
district court. See United States v. Elias, 921 F.2d 870, 874 (9th Cir. 1990).
All pending motions and requests are denied.
AFFIRMED.

3

19-35279

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 1 of 14

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

GLEN JONES WARD,
Case No. 1:18-cv-00325-DCN
Plaintiff,
SUCCESSIVE REVIEW ORDER BY
SCREENING JUDGE

v.
STATE OF IDAHO; IDAHO
DEPARTMENT OF CORRECTION;
IDAHO STATE CORRECTIONAL
CENTER; JOHN ROBERT;
ALEXANDER NESHIKOFF;
ROBBINS; PROCTOR; COX;
FLANNERY; BLADES; ROJAS;
TOCKER; MATTHEWSON; CRUZ;
WARD; HARANAC; and GRAHAM,
Defendants.

Plaintiff Glen Jones Ward is a prisoner proceeding pro se and in forma pauperis in
this civil rights action. The Court previously reviewed Plaintiffs complaint pursuant to
28 U.S.C. §§ 1915 and 1915A, determined that it failed to state a claim upon which relief
could be granted, and allowed Plaintiff an opportunity to amend. See Initial Review
Order, Dkt. 9.
Plaintiff has now filed an amended complaint, along with numerous other filings,
exhibits, and supplements. See Dkt. 10, 11, 14, 15, 16, & 17. Plaintiff was previously
warned that “any amended complaint must contain all of Plaintiff s allegations in a single
pleading and cannot rely upon, attach, or incorporate by reference other pleadings or
documents.” Dkt. 9 at 11. Therefore, in determining whether Plaintiff has stated a claim
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 1

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 3 of 14

an unwilling attorney to represent an indigent litigant in a civil case”); Veenstra v. Idaho
State Bd. of Corr., Case No. 1:15-cv-00270-EJL (D. Idaho May 4, 2017) (“[The Court]
does not have inherent authority to compel an attorney to represent Plaintiffs pro bono.”).
The Court has no funds to pay for attorneys’ fees in civil matters such as this one.
The legal issues in this matter are not complex. And although Plaintiff appears to
have struggled to articulate his allegations in a coherent manner, a litigant is not entitled
to pro bono counsel merely to explore whether he may have a colorable claim and to draft
a pleading asserting any such claim. Also, as the Court concludes below, the amended
complaint fails to state a claim upon which relief may be granted; therefore, Plaintiff does
not have any likelihood of success on the merits. Accordingly, the Court will deny
Plaintiffs request for counsel.
2.

Screening Requirement
As explained in the Initial Review Order, the Court must dismiss a prisoner or in

forma pauperis complaint—or any portion thereof—that states a frivolous or malicious
claim, fails to state a claim upon which relief may be granted, or seeks monetary relief
from a defendant who is immune from such relief. 28 U.S.C. §§ 1915(d)(2) & 1915A(b).
3.

Pleading Standard
A complaint must contain “a short and plain statement of the claim showing that

the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A complaint fails to state a claim
for relief under Rule 8 if the factual assertions in the complaint, taken as true, are
insufficient for the reviewing court plausibly “to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 3

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 5 of 14

the Idaho Code, which is Idaho’s criminal code. And the undersigned recognized that the
initial complaint included numerous Idaho statutory citations when it screened a
complaint in another of Plaintiff s cases. See Ward v. IDOC, l:18-cv-00508-DCN (D.
Idaho Jan. 22, 2019) (Dkt. 9) (“Like Plaintiffs many other cases in this Court, the
Complaint in this case cites a multitude of federal and state statutes.”) (citing Ward v.
Idaho, l:18-cv-00325-DCN). The Court simply made a mistake in neglecting to include
the word “cognizable” in the phrase quoted above.
Plaintiffs claims based on Idaho criminal statutes are, in fact, not cognizable—
which means that they cannot be heard. This is because (1) the Court has no authority to
hear state criminal matters, (2) an individual person like Plaintiff, as opposed to the
United States itself through the Department of Justice, has no power to initiate a criminal
action in federal court, see Dkt. 9 at 9-10, and (3) none of the state criminal statutes cited
by Plaintiff give rise to civil liability, see Yoakum v. Hartford Fire Ins. Co., 923 P.2d
416, 421 (Idaho 1996) (finding no private right of action from penal statute and stating,
“In the absence of strong indicia of a contrary legislative intent, [the Court]...
conclude[s] that the legislature provided precisely the remedies it considered
appropriate.”) (relying on Middlesex County Sewerage Auth. v. National Sea Clammers,
453 U.S. 1,15 (1981)). Plaintiffs state law claims, as identified in the initial complaint,
were not cognizable. Thus, the Court’s intended statement, that Plaintiff did not identify
any cognizable state law claims, would have been correct. Though the Court tries its best
to eliminate typographical errors from its decisions, it is impossible to catch them all.

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 5

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 7 of 14

believed overheard and recorded <radio & camera>; increasing safety risk.”3 Another
defendant allegedly engaged in “antics” that “led to further, subsequent harassment
(officer and offender alike); & increased animosity. Fueling harm culminating with
aggravated assaults & battery incidents,” as well as disciplinary sanctions. Dkt. 11 at 4
(capitalization regularized). These are the only factual allegations contained in the facts
section of the amended complaint.
Pages 2 and 3 and 5 through 7 of the amended complaint contain a list of named
defendants, but they also include various allegations as to these defendants’ actions.
These allegations are quite generalized and do not convey any of the surrounding
circumstances. For example, Plaintiff identifies (1) John Roberts as the “main assailing
correctional staff’ who “confiscated & destroyed” a protective custody request and who,
along with an officer Cox, pressured Plaintiff to sign a “safe in general population
statement”; (2) case manager Carr as someone who was “made aware of officer &
offender conflict”; (3) case manager Lane as having been involved in “offender & officer
issues”; (4) clinician Garay as engaging in “improper (risky ‘go away; go bug someone
else’) techniques to apply to assert, and divert - hostile - inmate harassment, resulting in
even hightened [sic] aggression”; (5) Sergeant Higgens as the move coordinator who
“unnecessarily diverted staff caution about impending harm; only to ignore it”;
(6) Corporal Flannery as a supervisor who was “indifferent” and placed inmates in
“wreckless [sic] endangerment”; and (7) case manager Hungerford as someone who was

3 For ease of reading, the Court has normalized the capitalization in all its quotations from the amended
complaint.
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 7

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 9 of 14

Plaintiff also has not stated a plausible state or federal claim simply by citing
numerous titles of the United States and the Idaho Codes. See Dkt. 11 at 1 (“U.S. Code;
Titles: 1, 4->10, 15, 18, 22, 28^29, 42 & 45 <more at 1 U.S.C. §§ 1 et. seq.; §§ 101 et.
seq....> and, Idaho Code; Titles: 15; 18—>20 & 74”) (ellipsis and brackets in original); see
also id. at 4 (“Idaho Code; Title(s) 5, 6, 15, 18, & 20” and “U.S. Code: Title(s) 18, 28, &
42”) (parentheses in original).
Finally, other than 42 U.S.C. § 1983, the remaining federal statutes cited in the
amended complaint also are not implicated by that amendment. Section 1997 of Title 42,
see Dkt. 11 at 1, is simply a definitional section with respect to civil rights of incarcerated
persons. And 28 U.S.C. § 2254, see id., governs petitions for writs of habeas corpus—not
traditional civil actions like this one.
Section 2254 habeas petitions challenge a criminal conviction for which a prisoner
is in custody. However, such claims generally may not be asserted in a § 1983 action.
Heck v. Humphrey, 512 U.S. 477, 486-87 (1994). In Heck, the United States Supreme
Court held that a civil rights claim “is not cognizable under § 1983” if the plaintiffs
success would “render a conviction or sentence invalid.” Id. Thus, if a favorable verdict
in a civil rights action “would necessarily imply the invalidity” of the plaintiffs
conviction, the plaintiff must first show that “the conviction or sentence has been
reversed on direct appeal, expunged by executive order, declared invalid by a state
tribunal authorized to make such determination, or called into question by a federal

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 9

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 11 of 14

i.

Eighth Amendment Claims

To state a claim under the Eighth Amendment, Plaintiff must plausibly allege that
he was “incarcerated under conditions posing a substantial risk of serious harm.” Farmer
v. Brennan, 511 U.S. 825, 834 (1994) (internal quotation marks omitted). He must also
plausibly allege that Defendants were deliberately indifferent to that risk, meaning that
the Defendants (1) were aware of the risk to Plaintiffs safety, yet (2) deliberately
disregarded that risk. Id. at 837.
Plaintiff has not done so. He offers nothing from which a factfinder could
reasonably conclude that Plaintiff was at a substantial risk of harm simply because a few
inmates overheard that Plaintiff had requested protective custody. In addition, there are
no allegations in the amended complaint giving rise to a reasonable inference that
Defendant Baker knew that Plaintiff was in such substantial danger and yet deliberately
disregarded the risk by choosing to call for a “charge check” where other inmates could
overhear. As for the supervisory defendants, the amended complaint does not plausibly
allege a sufficient causal connection between these defendants’ actions and the attack on
Plaintiff by other inmates. See Starr v. Baca, 652 F.3d 1202, 1207 (9th Cir. 2011).
li.

Due Process Claims

Plaintiffs statement that Defendants’ actions resulted in disciplinary sanctions
indicates that he might be attempting to assert a procedural due process claim. The Due
Process Clause of the Fourteenth Amendment prohibits state action that deprives a person
of life, liberty, or property without due process of law. Because liberty interests are
“generally limited to freedom from restraint,” the Supreme Court has held that a prisoner
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 11

Case l:18-cv-00325-DCN Document 18 Filed 03/26/19 Page 13 of 14

the government function involved as well as of the private interest that has been affected
by governmental action.”) (internal quotation marks and alteration omitted). The Due
Process Clause requires that an inmate receive notice of the charges against him and an
opportunity to respond. See Mathews v. Eldridge, 424 U.S. 319, 348 (1976).
Plaintiff asserts only that he was subjected to discipline. He has not plausibly
alleged that he had a liberty interest in avoiding that discipline or that—if he did have
such a liberty interest—he did not receive all the process to which he was due. Thus, to
the extent Plaintiff asserts a due process claim, it is implausible.
6.

Conclusion
Although pro se pleadings must be liberally construed, “a liberal interpretation of

a civil rights complaint may not supply essential elements of the claim that were not
initially pled.” Ivey v. Bd. ofRegents ofUniv. ofAlaska, 673 F.2d 266, 268 (9th Cir.
1982). Because Plaintiff has already been given the opportunity to amend and still has
failed to state a plausible claim for relief, the Court will dismiss the amended complaint
with prejudice and without further leave to amend. See Knapp v. Hogan, 738 F.3d 1106,
1110 (9th Cir. 2013) (“When a litigant knowingly and repeatedly refuses to conform his
pleadings to the requirements of the Federal Rules, it is reasonable to conclude that the
litigant simply cannot state a claim.”).
ORDER
IT IS ORDERED:
1.

Plaintiffs Motion to Amend Complaint (Dkt. 10) is GRANTED IN PART,
to the extent that the Court has screened Plaintiffs amended complaint

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 13

Additional material
from this filing is
available in the
Clerk's Office.

